 ,I'
i

                                                        NATIONAL SCIENCE FOUNDATION
                                                         OFFICE OF INSPECTOR GENERAL
                                                           OFFICE OF INVESTIGATIONS

                                                   CLOSEOUT MEMORANDUM

       Case Number: A08090044                                                                      Page 1 of 1



                        Our inquiry determined that an allegation of plagiarism in three NSF proposals!
                submitted by the PI (subject)2 appeared to be substantive. The Institution3 conducted an
                investigation and concluded that the PI plagiarized text into the three proposals. The Institution
                concluded the subject's actions were research misconduct. We concurred with the Institution and
                recommended NSF make a finding of research misconduct.

                         This memo, the attached Report of Investigation, and the Deputy Director's decision
                letter constitute the case closeout. Accordingly, this case is closed.




                                                                                                                     "




(j
       NSF OlG Fonn 2 (11/02)
                                                                                                      1,



                                  NATIONAL SCIENCE FOUNDATION'
                                      4201 WILSON BOULEVARD
                                     ARLINGTON, VIRGINIA 22230


                                          April 18, 2011


       OFFICE OFTHE
        DIRECTOR



CERTIF1ED MAll., -RETURN RECEIPT REQUESTED




         Re: Notice ofResearch Misconduct Determination


Dear                  :

       From 2003 - 2008, you ~ubmitted three proposals to the National Science Foundation
(''NSF'') entitled,
                                                       ," "
                                   ," and "
                                   ." As documented in the attached Investigative Report
prepared by NSF's Office of Inspector General ("GIG"), these proposals contained plagiarized
material.

Research Misconduct and Proposed Sanctions
        Under NSF;s regulations; "research mis'cOnduct" is defined as "fabrication, falsification,
or plagiarism in proposing or performing research funded by NSF ..." 45 CFR § 689.1 (a). NSF
defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giving appropriate credit." 45 CFR § 689.1(a)(3). A finding of research misconduct
requires that:

          (1) There 	be a significant departure from accepted practices of the relevant research
              community; and                           '                                       '
          (2) 	The research misconduct be committed intentionally, or knowingly, or recklessly; and
          (3) 	The allegation be proven by a preponderance of evidence.

45 CFR § 689.2(c).
                                                                                              Page 2
         Your proposals contained verbatim and paraphrased text copi~d from nineteen source
 documents. By submitting proposals to NSF that copied the ideas or words of another without
 adequate attribution, as described in the OIG Investigative Report, you misrepresented someone
 else's work as your own. Your conduct unquestionably constitutes plagiarism. I therefore
 conclude that your actions meet the definition of "research misconduct" set forth in NSF's
 regulations.

          Pursuant to NSF regulations, the Foundation must also determine whether to make a
. finding of misconduct based on ~ preponderance of the evidence. 45 CFR § 689.2(c). After
  reviewing the Investigative Report, NSF has determined that, based on a preponderance of the
   evidence, your plagiarism was committed knowingly and constituted a significant departure from
   accepted practices of the relevant research community. I am, therefore, issuing a fmding of
   research misconduct against you.

          NSF's regulations establish tbree.categories ofactions (Group I, IT, and TIl) that can be
 taken in response to a fmding of misconduct. 45CFR § 689.3(a). Group I actions include
 issuing a letter of reprimand; conditioning awards on prior approval ofparticular activities from
 NSF; reqUiring that an institution or individual obtain special prior approval ofparticular
 activities from NSF; and requiring that an institutional representative certify as to the accuracyof
 reports or certifications of compliance with particular requirements. 4;5 CFR § 689.3(a)(I).
 Group IT actions include award suspension or restrictions on designated activities or
 expenditures; requiring special reviews of requests fOT funding; and requiring correction to the
 research record. 45 CFR § 689.3(a)(2). Group ill actions include suspension or termination of
 awards; prohibitions on participation as NSF reviewers, advisors or consultants; and debarment
 or suspension from participation in NSF programs. 45 CFR § 689.3(a)(3).

         In determining the severity of the sanction to impose for research misconduct, I have
  considered the seriousness ofthe misconduct, and our determination that it was committed
  knowingly. I have also considered the fact that you engaged in a pattern ofmisconduct, that your
  misconduct had no impact on the research record, arid that you have taken positive steps to
  ensure that you do not repeat this behavior. In addition, I have cOrlsidered other relevant
  circumstances. 45 CFR § 689.3(b).

         After assessmg the relevant facts and circWnlitances of this case, I am taking the
  following actions against you:

         (1) Until April 15, 2013, you must provide to the OIG certifications that any proposal or
             report that you submit to NSF as a PI or co-PI does not contain plagiarized, falsified,
             or fabricated material;

         (2) Until April 15, 2013, you must provide to the-bIG as~urances from your employer
             that anyproposal or report that you submit to NSF as a PI or co-PI does not contain
             plagiarized, falsified, or fabricated material; and
,
                                                                                               Page 3
           (3) No later than April 15,2012, you must take a course on research ethics, with an
               emphasis on proper citation and attribution, and certify to the OIG that you have
               completed such a course.

       The certifications and assurances should be submitted in writing to the Foundation's OIG,
Associate Inspector General for Investigations, 4201 Wilson Boulevard, Arlington, Virginia
22230.

    Procedures Governing Appeals
           Under NSF's regulations, you have 30 days aftel; receipt of this letter to submit an appeal
    ofthis decision, in writing, to the Director of the Foundation. 45 CFR § 689.1O(a). Any appeal
    should be addressed to the Director at the National Science Foundation, 420lWilson Boulevard,'
    Arlington, Virginia 22230. If we do not receive your appeal within the30-day period, this
    decision will become final.

           For your information, we are attaching a copy of the applicable regulations. If you have
    any questions about the foregoing, please call             Assistant General Counsel, at (703)
    292-8060.



                                                        .Sincerely,




                                                         Wanda Ward
                                                         Senior Advisor to the Director




    Enclosures
       Investigative Report
    - 45 C.F.R. Part 689
CONFIDENTIAL                                                                      CONFIDENTIAL




      National Science Foundation
        Office of Inspector General




                      Confidential
                 Report of Investigation
                Case Number A08090044
                         15 December 2010

                This Confidential Report of Investigation is provided to you
                               FOR OFFICIAL USE ONLY.
 It contains protected personal information, the unauthorized disclosure of which may result in
 .personal criminal liability under the Privacy Act, 5 U.S.C. § 552a. This report may be further
  disclosed within NSF only to individuals who must have knowledge of its contents to
  facilitate NSF's assessment and resolution of this matter. This report may be disclosed
  outside NSF only under the Freedom of Information and Privacy Acts, 5 U.S.C. §§ 552 &
  552a Please take appropriate precautions handling this confidential report of investigation

                                                                             NSF OIG Fonn 22b (10/10)
CoNFIDENTIAL 	                                                                         CoNFIDENTIAL


                                          Executive Summary

Allegation:       Plagiarism

OIG Inquiry:

          • 	 Three unfunded NSF proposals contained text copied from multiple source
              documents.
          • We referred the allegation to the Subject's Institution for investigation.

Institution Investigation and Actions:

          • 	 The Institution's inquiry detern1ined a fOrn1al investigation was warranted.
          • 	 The Investigation Committee concluded a preponderance of the evidence proved
              the Subject acted intentionally and knowingly when she plagiarized text in the
              NSF proposals.
          • 	 The Vice President for Research recommended to the President (the adjudicator)
              that the Subject be tern1inated.
          • The fmal adjudication has not as yet been completed.

OIG Assessment:
       We concur with the Institution that the Subject plagiarized text into three NSF proposals.
       The Act: The Subject plagiarized a total of 155 lines of text into three NSF proposals
       from 19 source documents.

       Intent: The Subject acted knowingly.
       Standard of Proof: The preponderance of the evidence supports the conclusion that the
       Subject knowingly plagiarized these materials into her NSF proposals.
       Significant Departure: We concur with the Institution in concluding the Subject's
       copying represen~s a significant departure from community standards.

OIG Recommendations:

              • 	 Send a letter of reprimand to the Subject inforn1ing her that NSF has made a
                  finding of research misconduct;

              • 	 Require the Subject to certify any proposals she submits to NSF for a period of 2
                  years contain no plagiarized, falsified, or fabricated material;

              • 	 Require the Subject to provide assurances that any proposals she submits to NSF
                  for a period of2 years contain no plagiarized, falsified, or fabricated material; and

              •   Direct the Subject to provide verification of her completion of an ethics course
                  within one year.



                                                    1
CoNFIDENTIAL                                                                                  CoNFIDENTIAL




                                                OIG's Inquiry

Our analysis of three NSF proposals, l two submitted by Scientist 12 as the sole PI (Proposals 2
and 3) and one submitted by Scientist 23 as PI and Scientist 1 as co-PI (Proposal 1), revealed
about 155 lines of text apparently copied from 19 source documents. 4 We initiated our inquiry
by writing to each of the scientists. 5

In their responses 6 , Scientist 2 indicated that all text identified as copied material was written by
Scientist l(The Subject). In the Subject's response, she stated:

         I am· distressed by the allegations as I have not intentionally or consciously
         plagiarized material. For all three proposals I did not copy material from any
         document without citing a source. [7)

The Subject further explained that she: 1) cited her sources; 2) had never seen several of the
source documents; 3) thought some of the material was fairly common language; 4) used some
material from the original references just as these were cited in the source documents; and 5)
could not tell what the original sources were for some of the web materials so she did not know
how to reference them. 8

Since the Subject's response did not dispel the allegation, we determined there was sufficient
substance to warrant an investigation, and referred the investigation to the Subject's Institution. 9

                                          Institution's Investigation

The Institution, following its Policy,10 opened an inquiry that determined a formal investigation
was warranted. 11                                                            .




4 Source documents include 17 web pages, one awarded NSF Proposal, and one journal article.
5TabA
6 Tab B.
7 Tab B, subject's response, page 1.
8 Tab B, pages 1 and 2.
9 Referral Letter to the • • • • • • • • • • • (the Institution) Tab C.
10 Tab D, Ethics in Research Policy.
II Tab D, Inquiry Conclusion Notification.




                                                       2
CoNFIDENTIAL                                                                        CoNFIDENTIAL




The Investigation Committee's Draft Report 12 (the Report) included a thorough analysis of the
evidence in this case. The Committee's evaluation concluded that the Subject:

        does not dispute the fact that she copied text from someone else's work without
        properly attributing the text and distinguishing it from her own material. Rather
        she argues that (a) several of the instances of alleged plagiarism represent cases of
        common knowledge (e.g. evidentiary material MI - M5), (b) citation of source
        documents was provided (e.g. evidentiary material A6), and (c) she was ignorant
        of the definition ofplagiarism vis-A-vis scientific misconduct. [13]

In reviewing the Subject's explanations, the Committee further detennined that, with respect to
several instances of the Subject's alleged plagiarism, the material in question could have been
considered common knowledge "if it were not for the fact that [the Subject] copied the material·
word-for-word from the source documents in question." 14 With respect to some citations
provided within the paragraphs of copied text, the Committee detennined that "the text in
question is copied essentially word-for-word from the source document without indication that
the copied material is a direct quotation, which is plagiarism.,,15 Finally, with respect to the
Subject's claim of ignorance about plagiarism, the Committee stated that

        ignorance is no defense against the charge of plagiarism. Indeed, the Board was
        surprised that a scientist/educator with [the Subject's] experience would not
        understand the definition of plagiarism. The Board also disapproved of
        suggestions that her mentor(s) shared some responsibilitl, for this misconduct (see
        [the Subject's] letter to the Board dated 12 June 2009)P ]

The Committee concluded the preponderance of the evidence supported a conclusion that the
Subject committed plagiarism, which was a siwficant departure from the accepted practices,
and the actions were intentional and knowing. 7 The Committee also detennined that a "pattern
of plagiarism existed,,,18 but this pattern did not have an impact on the research record. Finally,
with respect to the awarded NSF proposal identified as a source document, the Committee
discovered the proposal had been placed on a website about the time the Subject's proposal was
submitted. The Committee noted it w a s '                                         .

        somewhat mollified about its potential impact on the peer review system because
        the putative source, rather than being the original proposal, miFt have been a
        website that was developed after NSF proposal [1] was fundedP9




12 Tab D, Draft Report to
13 Tab D, Draft Report to          page 3.
14 Ibid, page 3 and 4.
15 Ibid, page 4.
16 Ibid.
17 Ibid.
18 Ibid.
19 Ibid, page 5.




                                                  3
 CoNFIDENTIAL                                                                       CoNFIDENTIAL


The Subject responded to the Committee' sreport20 and the Committee forwarded its report and
the Subject's response to the Vice President for Research (VPR), who, according to the
Institution's Policy, is the official responsible for recommending sanctions to the Institution's
President. The VPR wrote to the President with his recommendation that the Subject be
tenninated. 21 The President of the University concurred with the VPR's recommendation.

                                         DIG's Assessment

Upon receipt of the Report, we wrote the Subject infonning her of our independent investigation
and asked if she had additional comments concerning the Report. The Subject responded
indicating that she never received fonnal training regarding plagiarism and that some of the
proposals were written when she had very little experience in grant writing. 22

We evaluated the Report and accept it as accurate an~ complete, and we conclude the Institution
followed reasonable procedures in its investigation. The Committee was thorough in assessing
the evidence and fair in its evaluation. The only aspect of the Institution's investigation that we
do not agree with is its detennination of the level of intent with which the Subject acted, which it
characterized as intentional and knowing. We discuss our conclusions below.

NSF's Research Misconduct Regulation states that a finding of misconduct requires:

       (1) There be a significant departure from accepted practices of the relevant
       research community; and (2) The research misconduct be committed
       intentionally, or knowingly, or recklessly; and (3) The allegation be proven by a
       preponderance of the evidence. [45 CFR§ 689.2(c)]

                                             The Act

Reviewing the Subject's inquiry response to our office and the Institution's investigation, we
determined the Subject copied verbatim text, totaling 155 lines into three unfunded NSF
proposals, without proper attribution. The text came from 19 source documents, one of which
was an awarded NSF proposal that we detennined had been placed on a website about 8 months
prior-to the Subject's submission of Proposal 1.23 The total amount of copied material represents
about 4. pages of text.




20 Tab D, _              response to Draft Report.
21 Tab D, August 27, 2009, Letter to the President
22 Tab E.
23 Using the waybackmachine                              we discovered source document the NSF
awarded proposal, had been made available online on
The subject's proposal was submitted _ . See Tab F for a copy                    information_


                                                4
CbNFIDENTIAL                                                                        CbNFIDENTIAL




              Proposal              Lines Copied                 Source Documents
                 1                       35                              3
                 2                      60                               8
                 3                      60                               8
               Total                    155                             19



During the investigation, the Subject claimed she was ignorant of proper citation practices, a
statement that the Institution's Investigation Committee did not accept. The Committee argued
that ignorance was no defense against a charge of plagiarism. Furthermore, it considered
surprising the claim that a scientist and educator with the Subject's experience did not
understand appropriate citation methods for text written by others. We conclude, therefore, the
Subject had both experience in writing and submitting proposals and an understanding of NSF's
expectations. 24

Further, the Subject received both her master's and doctorate at a well-known university. In
addition, she is involved in many activities related to education and editing, and has many
publications in established and respected joumals. 25 Therefore, she had a reasonably extensive
background in research citation practices. Based on our review of the evidence and her overall
experience, we conclude the Subject knowingly copied the text into her NSF proposal.

                                              Standard o{Proo{

Based on our review and the review of the Institution's Investigation Committee, we concluded
that the preponderance ofthe evidence indicates that the Subject copied text into her proposals
without appropriately distinguishing that text from her own work. Further, OIG concludes, as
did the Committee, that the Subject's behavior significantly deviates from accepted practices.

Because the. preponderance of the evidenc.e proves that the Subject knoWingly copied text into
three NSF proposals, OIG concludes that the Subject's actions constitute plagiarism and
therefore research misconduct.



24   The subject has submitted 4
25           received a Ph.D. in
                              She




                                                     5
Q)NFIDENTIAL                                                                                           Q)NFIDENTIAL




                                        OIG Recommended Disposition

When deciding what appropriate action to take upon a finding ofmisconduct, NSF must
consider:                                                                       '

         (1) How serious the misconduct was; (2) The degree to which the misconduct was
         knowing, intentional, or reckless; (3) Whether it was an isolated event or part of a
         pattern; (4) Whether it had a significant impact on the research record, research
         subjects, other researchers, institutions or the public welfare; and (5) other
         relevant circumstances. [45 C.F.R. §689.3(b)]

                                                     Seriousness

Plagiarism strikes at the very heart ofresearch integrity and is an unacceptable practice within
the research community. In addition, the NSF policy in existence at or near the time of the
Subject's proposals provided that

         NSF expects strict adherence to the rules of proper scholarship and attribution.
         The responsibility for proper attribution and citation rests with authors of a
         proposal; all parts of the proposal should be prepared with equal care for this
         concern. Serious failure to adhere to such standards can result in findings of
         research misconduct. NSF policies and rules on misconduct in science and
         engineering are discussed in Grant Policy Manual (GPM) Section 930 as well as
         in 45 CFR Part 689. [GPG section I.E. (1012003)]

The Subject's actions are a violation of the standards of scholarship long established by NSF .26
The extent of the plagiarism is significant as is the Subject's failure to appropriately distinguish
her own text from text that was copied.

                                                  Degree o(Intent

The act ofplagiarism is generally an act done knowingly. Given the Subject's statements, her
submissions of several proposals and her education and publishing history, it is clear the Subject
knew what NSF expected the author ofthe proposals to dQ. In claiming that she was unaware of


26 As early as 1976, in the Grantsfor Scientific Research (NSF application guide for principal investigators), NSF
instructed proposal submitters that "A proposal should be self-contained and written with the care and thoroughness
 accorded papers prepared for publication." (NSF76-38, page 2) Since that time, that concept has appeared and been
expanded upon in each successive iteration of this guide. The current Grant Proposal Guide states that the proposal
"should be prepared with the care and thoroughness of a paper submitted for publication. . .. NSF expects strict
adherence to the rules of paper scholarship and attribution. The responsibility for proper scholarship and attribution
rests with the authors of the proposal; all parts of the proposal should be prepared with equal care for this concern.
Authors other than the PI (or co-PI) should be named and acknowledged. Serious failures to adhere to such
standards can result in fmdings of research misconduct. NSF polices and rules on research misconduct lhere NSF provides
the definition ofresearchmisconductj are discussed in the AAG Chapter VII.C, as well as 45 CFR Part 689." NSF 10-01 Grant
Proposl11 Guide I.D.3.


                                                           6
CDNFIDENI1AL 	                                                                      CDNFIDENI1AL


proper scholarship standards, she failed to take responsibility for her actions. Although the
Institution's Investigation Committee stated that the Subject's actions could be interpreted as
intentional, we believe the preponderance of the evidence cannot support such a conclusion. The
evidence does support a conclusion that the Subject's actions were distinctly knowing.

                                                       Pattern

The Subject submitted three proposals to NSF that contained plagiarized text. The Subject's
practice of plagiarizing text into multiple proposals was part of a pattern of behavior.

                                        Impact on the research record

There is no evidence of any impact on the research record as a result of the plagiarism in the
proposals the Subject submitted to NSF.

                                                Recommendations

Based on the evidence, OIG recommends that NSF:

         • 	 Send a letter of reprimand to the Subject informing her that NSF has made a finding
             of research misconduct;27                                      .

         • 	 Require the Subject to certify that proposals she submits to NSF do not contain
             plagiarized, falsified, or fabricated material for 2 years;28

         • 	 Require the Subject to provide assurances from a responsible official that proposals
             she submits to NSF do not contain plagiarized, falsified, or fabricated material for 2
             years;29

         • 	 Direct the Subject to attend a course in research ethics within 1 year of the final
             disposition ofthe case and certify to NSF's OIG that she has done so.30

The Subject's certifications and proof of an ethics course should be sent to the Assistant
Inspector General for Investigations for retention in OIG's confidential file on this matter.




27 This is a Group I action, 45 CFR §689.3(a)(l).
28 This is equivalent to a Group I action, 45 CFR §689.3(a)(1).
29 This is a Group I action, 45 CFR §689.3(a)(1).
30 This is equivalent to a Group I action, 45 C.F.R. §689.3(a)(l).




                                                           7
